<html>
<title> - S. Hrg. 113-110 UPDATE ON THE SITUATION IN SYRIA</title>
<body><pre>[Senate Hearing 113-110]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 113-110

                    UPDATE ON THE SITUATION IN SYRIA
=======================================================================

                                HEARING

                               BEFORE THE 

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 17, 2013

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.fdsys.gov/

                               __________


                        U.S. GOVERNMENT PRINTING OFFICE
85-634 PDF                    WASHINGTON : 2013
 ___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b5c4b547b584e484f535e574b1558545615">[email&#160;protected]</a>  




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                    Update on the Situation in Syria

                             April 17, 2013

                                                                   Page

Hagel, Hon. Charles T., Secretary of Defense.....................     4
Dempsey, GEN Martin E., USA, Chairman, Joint Chiefs of Staff.....     7

                                 (iii)


                    UPDATE ON THE SITUATION IN SYRIA

                              ----------                              


                       WEDNESDAY, APRIL 17, 2013

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:58 p.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Donnelly, 
King, and McCain.
    Committee staff member present: Peter K. Levine, staff 
director.
    Majority staff members present: Michael J. Kuiken, 
professional staff member; and William G.P. Monahan, counsel.
    Minority staff members present: John A. Bonsell, minority 
staff director; and Thomas W. Goffus, professional staff 
member.
    Staff assistants present: Kathleen A. Kulenkampff, Mariah 
K. McNamara, and John L. Principato.
    Committee members' assistants present: Carolyn Chuhta, 
assistant to Senator Reed; Chad Kreikemeier, assistant to 
Senator Shaheen; Marta McLellan Ross, assistant to Senator 
Donnelly; Steve Smith, assistant to Senator King; Christian 
Brose, assistant to Senator McCain; Michelle Schmitt, assistant 
to Senator McCain; Lenwood Landrum, assistant to Senator 
Sessions; and Todd Harmer, assistant to Senator Chambliss.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. We welcome back our Secretary of Defense, 
Chuck Hagel, and the Chairman of the Joint Chiefs of Staff, 
General Martin Dempsey, for an update on the situation in 
Syria.
    Reports emerging from Syria continue to grow worse by the 
day. The death toll grows and is nearly 75,000, according to 
the latest reports. The refugee and internally displaced 
populations are growing rapidly with estimates of their 
combined population in the millions. The internal battle 
between moderate and extremist elements of the opposition is 
not currently moving in the right direction, and the security 
of Syria's chemical weapons stockpile can only deteriorate.
    In addition, President Assad and his increasingly small 
inner circle are resorting to the use of Scud missiles, air 
strikes, and other indiscriminate and brutal capabilities more 
and more; and the employment of proxy militias to terrorize and 
kill his fellow Syrians.
    Assad's military operations are enabled by two 
international actors: Iran and Russia. Iran's financial and 
materiel support have been critical to helping Assad's military 
remain operable, and Russia's support to Syria's more advanced 
military weaponry is critical to Assad's continuing ability to 
project power into areas of the country that he no longer 
controls.
    Syria's political and military opposition have introduced 
their own set of problems. Internal disagreements have 
prevented them from unifying their political and military 
chains of command. This has made their efforts fragmented at 
best. Secretary Kerry is working with the opposition to try, 
yet again, to bring them together, and these efforts are also 
complicated by the increasingly capable al-Nusrah Front, an al 
Qaeda offshoot that has used the security vacuum in Syria to 
spread its influence. Its growing presence is of concern and 
countering its spread needs to be a priority as we move 
forward.
    The President has been cautious in employing the 
capabilities of our national security architecture, while 
contributing to the humanitarian efforts to provide relief to 
the Syrian people. I believe that time has come for the United 
States to intensify the military pressure on Assad.
    Senator McCain and I recently wrote the President urging 
him to consider supporting a number of efforts, including the 
creation by Turkey of a safe zone inside of Syria along their 
border, the deployment of our Patriot batteries closer to that 
border in order to protect that safe zone, and to neutralize 
any Syrian planes that threaten it, and increasing support to 
vetted elements of the opposition in Syria. The committee will 
be interested in hearing from our witnesses on the feasibility 
of some of those proposals, as well as the feasibility of 
urging members of the Arab League and/or the Gulf Cooperation 
Council (GCC) to authorize its members and other willing states 
to take needed steps to protect civilian life. Any or all of 
these actions would send the critical message to Assad that it 
is time for him to go.
    We are assured that the Department of Defense (DOD) is 
postured to respond to a full range of contingencies in Syria. 
We look forward to hearing from our witnesses regarding the 
situation in Syria, the efforts that they have directed, their 
assessment of the options available, and the potential effects 
and consequences of exercising any or all of those options.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I want to thank the Secretary and General Dempsey for their 
patience. I know this has turned into a very long day for them, 
and I am sure they may feel that their time could be more 
usefully spent. But we thank you for being here because this is 
an issue which has now taken on proportions which are becoming 
more and more a possible threat to stability in the entire 
region, as well as the continued slaughter of thousands and 
thousands of innocent people.
    For example, a Human Rights Watch report released last week 
suggests that more than 4,300 civilians have been killed by air 
strikes in Syria since July 2012.
    The numbers begin to be overwhelming: over a million 
refugees, somewhere around 80,000 people killed. The 
neighboring countries, particularly Lebanon and Jordan, are 
being overwhelmed by the flow of refugees which, despite their 
best efforts and that of the United Nations High Commissioner 
for Refugees, is having not only a damaging effect on our 
ability to care for the refugees, but it is also having a 
destabilizing effect on the governments of both of those 
countries.
    So this is not just an issue that has to do with Syria. It 
also has to do with Iran and their continued supplying of 
weapons, materiel, and personnel. It also has to do with the 
Russians continuing supplying them with weapons and the 
Russians continuing to veto in the Security Council efforts to 
take modest actions against the Assad regime.
    I do not want to go on very long, but I would remind our 
witnesses and my colleagues that over 2 years ago, when a 
couple of young people wrote some graffiti and then were taken 
by Bashar's secret police and tortured, that ignited a fire not 
unlike that that began in Tunisia with a young man burning 
himself to death.
    Since then, we have seen all of the effects of non-
intervention that the opponents of intervention said would 
happen if we intervened. In other words, the conflict has 
spread. Bashar al Assad has refused to leave. Torture, murder, 
and rape continue at an accelerated pace. Surrounding nations 
are either destabilized or, in the case of Iran, heavily 
engaged. I will save my comments about the chemical weapons for 
the question and answer period because, obviously, that is a 
very, very serious issue of the utmost seriousness, as I am 
sure the President of the United States has stated his concern, 
and I know the witnesses have.
    So, I guess, in summary, I say to two distinguished leaders 
in defense, how much has to happen before we--how many people 
killed? How many air strikes? How many mass murders? How many 
weapons from Iran and Russia have to flow in? How destabilized 
do the other surrounding countries have to be before we realize 
that we should do more than what we are presently doing?
    I would point out it is very interesting. I have been 
around too long in the view of many. But I have never seen an 
entire national security team recommend a course of action as 
was recommended by then Secretary of State, then Secretary of 
Defense, now Chairman of the Joint Chiefs of Staff, and now 
Director of National Intelligence to take a course of action 
which was to provide arms to the resistance, and it was 
overruled somewhere in the White House.
    So, Secretary Hagel, I am aware--and we discussed some of 
the full menu of issues that you are confronting. But I am not 
sure there is another issue where thousands of refugees every 
night are pouring into the refugee camps and people are being 
slaughtered as we speak. So I hope that you will gain as 
informed of an assessment of the situation as you can and then 
reach a policy decision that you could recommend to the 
President of the United States. I am not saying you should. 
Obviously, I would like to see you take the same decision that 
the other members of the national security team did. But 
whatever, I would like for you to make a decision as to what 
course of action you would recommend to the President of the 
United States and what would be necessary from your standpoint 
as to how to most successfully achieve that goal.
    Again, I understand all of the issues that you have to 
face. You talked about most of them most of the morning. But I 
think this is a humanitarian issue that just simply is 
unacceptable to continue on the path that it is on.
    I am sorry for the long statement, Mr. Chairman, but I 
thank you for allowing me to speak.
    Chairman Levin. Thank you very much, Senator McCain, and 
thank you for your efforts in this regard. They have been 
longstanding and consistent. I think they are very important 
and I hope that they will create a response.
    Secretary Hagel, let me start with you.

    STATEMENT OF HON. CHARLES T. HAGEL, SECRETARY OF DEFENSE

    Secretary Hagel. Mr. Chairman, thank you. Senator McCain, 
thank you. Senator King, thank you.
    I think the Chairman and I both very much appreciate the 
opportunity to discuss this issue today. I would like to make a 
brief statement to lay out some of the general parameters on 
what we are doing. Then I think the Chairman has a very short 
statement. Then we will get into whatever you want to talk 
about.
    Chairman Levin. That would be fine. Thank you.
    Secretary Hagel. First, the policy of the U.S. Government 
is to work with allies and partners, as you both know, as well 
as the Syrian opposition, to provide humanitarian assistance 
across Syria and the region. It is to hasten the end of 
violence, to bring about a political transition to a post-Assad 
authority that will restore stability, respect the rights of 
all its people, prevent Syria from becoming a safe haven for 
extremists, and take the necessary actions to secure Syria's 
chemical and biological weapons.
    The best outcome for Syria and the region, I think, as we 
all agree, is a negotiated political transition. The role of 
DOD is to support broader U.S. diplomatic efforts while 
ensuring that the U.S. military is fully prepared to protect 
America's interests and meet our security commitments to the 
region.
    In pursuit of a negotiated political solution in Syria, the 
U.S. Government is working to mobilize the international 
community, further isolate the Assad regime, and support the 
moderate Syrian opposition. The United States has acknowledged 
the Syrian Opposition Coalition (SOC) as the legitimate 
representative of the Syrian people and committed to provide 
them with $117 million in nonlethal assistance, including 
communications and medical equipment.
    The State Department and the U.S. Agency for International 
Development (USAID) are providing technical assistance to the 
opposition which includes training for over 1,500 Syrian 
leaders and activists from over 100 local councils. The goal is 
to strengthen these opposition groups that share the 
international community's vision for Syria's future and 
minimize the influence of extremists.
    Additionally, President Obama has directed his national 
security team to increase nonlethal assistance to both the SOC 
and the Supreme Military Council. We are working now how to 
assess how to allocate and deliver that additional assistance.
    The Department of State and USAID, with support from other 
U.S. Government agencies, are working to alleviate the 
humanitarian crisis in Syria and help the more than 1 million 
Syrian refugees who have fled to neighboring countries. To 
date, the United States has provided $385 million in 
humanitarian assistance, including emergency medical care and 
supplies, food, and shelter. The United States is the largest 
single bilateral provider of humanitarian aid to the Syrian 
people. The United States is leading efforts to ensure that 
other countries make good on the $1.5 billion in commitments 
made at the International Humanitarian Pledging Conference for 
Syria held in Kuwait earlier this year.
    We are also working through diplomatic and military 
channels to encourage Russia and China to do more to help 
resolve this crisis, and I have conveyed the message in recent 
calls with both my Russian and Chinese counterparts.
    Internationally, the United States has worked with the 
European Union, Arab League, GCC countries, and over 50 
countries to build a robust sanctions regime designed to 
pressure the Syrian Government and bring about an end to the 
conflict. These sanctions are having an impact on the Assad 
regime's ability to access the international financial system 
and raise foreign currency revenue.
    In support of U.S. Government efforts to respond to the 
crisis, DOD has expanded security consultations with key allies 
and partners in the region and in Europe, ensured that the U.S. 
military is strategically postured in the region, and engaged 
in robust military planning for a range of contingencies.
    U.S. military leaders are in regular communications with 
senior allied military leaders. Over the past year, we have 
synchronized defense planning with several nations, including 
Canada, the United Kingdom, and France. Following the 
President's recent trip to Israel and Jordan, on Saturday, I 
will travel to the region and meet with defense leaders of 
Israel, Jordan, Saudi Arabia, Egypt, and the United Arab 
Emirates to review our regional security efforts. Secretary 
Kerry will be in Turkey this weekend discussing Syria with the 
Turkish Government and other key partners. The President's 
National Security Advisor has just returned from Russia where 
he discussed Syria with Russian leaders. Chairman Dempsey will 
be in China this week discussing Syria with Chinese leaders.
    Last December, DOD deployed Patriot missile batteries to 
southern Turkey for the protection of our North Atlantic Treaty 
Organization (NATO) ally. Since last year, a small team of U.S. 
military experts has been working in Jordan on planning related 
to chemical weapons and preventing a spillover of violence 
across Jordan's borders.
    Last week, I ordered the deployment of a U.S. Army 
headquarters element to enhance this effort in Amman. These 
personnel will continue to work alongside the Jordanian armed 
forces to improve readiness and prepare for a number of 
scenarios.
    Through our Cooperative Threat Reduction (CTR) program, DOD 
personnel and our interagency partners are also working closely 
with Syria's neighbors, including Jordan, Turkey, and Iraq, to 
help them counter the threat from Syria's chemical weapons. As 
part of this effort, DOD is funding over $70 million for 
activities in Jordan, including providing training and 
equipment to detect and stop any chemical weapons transfers 
along its border with Syria and developing Jordanian capacity 
to identify and secure chemical weapons assets.
    President Obama has made clear that if Assad and those 
under his command use chemical weapons or fail to meet their 
obligations to secure them, there will be consequences, and 
they will be held accountable. DOD has plans in place to 
respond to the full range of chemical weapons scenarios.
    The U.S. military is constantly updating and adjusting 
tactical military planning to account for the rapidly shifting 
situation on the ground and to prepare for additional new 
contingencies, not only those associated with the Syrian 
regime's chemical weapons, but also the potential spillover of 
violence across Syria's borders that could threaten allies and 
partners.
    While I cannot discuss specific plans in an open session, 
we have been developing options and planning for a post-Assad 
Syria, and we will continue to provide the President and 
Congress with our assessment of options for U.S. military 
intervention.
    The reality is that this is a complex and difficult 
situation, as everyone on this committee knows. The killing of 
innocents by the Syrian regime is tragic. The Assad regime is 
intent on maintaining power, the conflict within Syria has 
developed along dangerous sectarian lines, and the opposition 
has not yet sufficiently organized itself politically or 
militarily.
    We have an obligation and responsibility to think through 
the consequences of any direct U.S. military action in Syria. 
Military intervention at this point could hinder humanitarian 
relief operations. It could embroil the United States in a 
significant, lengthy, and uncertain military commitment. 
Unilateral military action could strain other key international 
partnerships, as no international or regional consensus on 
supporting armed intervention now exists. Finally, a military 
intervention could have the unintended consequence of bringing 
the United States into a broader regional conflict or proxy 
war.
    Military intervention is always an option, should be an 
option, but an option of last resort. The best outcome for 
Syria and the region is a negotiated political transition to a 
post-Assad Syria.
    Having said that, the responsibility of DOD is to protect 
America's national security and to provide the President with a 
full range of options for any contingency. The U.S. military is 
prepared to respond at the President's direction. We will 
continue to work with our allies and partners to defend our 
interests, meet security commitments in the region, and support 
efforts to achieve a political solution to the crisis.
    I will look forward to your questions and would ask now if 
General Dempsey has some remarks.
    Chairman Levin. Thank you, Mr. Secretary.
    General?

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Dempsey. Thank you. Chairman Levin, Senator McCain, 
and Senator King, I appreciate this opportunity to discuss the 
evolving situation in Syria.
    The conflict in Syria remains tragic and dangerous for the 
people of Syria and for the region.
    I know you are familiar with testimony by numerous 
officials who have come up to Capitol Hill from across 
government over the past several weeks who have come to discuss 
this subject with you. So I will focus my brief opening remarks 
on the subject of the military instrument of power and how it 
could relate to Syria.
    Our military focus has been on preparedness. We have 
deployed Patriot missiles to defend Turkey as part of a NATO 
mission. We are sharing information and conducting planning 
with our close partners, as Secretary Hagel said. We have 
conducted our own internal planning for a wide variety and 
range of contingencies, and we are well-postured within the 
region for any contingencies.
    When called, our responsibility has and always will be to 
provide the Secretary of Defense and the President of the 
United States with options. Some options involve the use of 
military force. The decision to use force, especially lethal 
force, is not one that any of us takes lightly. In weighing 
options, we have a responsibility to align the use of force to 
the intended outcome. We also have a responsibility to 
articulate risk, and that is not just risk to our forces, but 
to the mission we may be assigned and to our responsibilities 
elsewhere. Some options may not be feasible in terms of time or 
in opportunity costs without compromising our security 
elsewhere. So before we take action, we have to be prepared for 
what comes next. The use of force, especially in circumstances 
where ethnic and religious factors dominate, is unlikely to 
produce predictable outcomes.
    Now, to be clear, this is not a reason to avoid 
intervention and conflict, rather to emphasize that unintended 
consequences are the rule with military interventions of this 
sort.
    In cases where a direct threat to our Homeland is unclear 
or where it is assessed to be a future rather than an imminent 
threat, we should act, when possible, in concert with allies 
and partners to shape the outcome and help bear the burden. Now 
that said, I would note that the Armed Forces of the United 
States can do very nearly anything asked of it, provided we 
have the support of the American people and the resources 
necessary to accomplish the mission.
    Thank you for your support of America's sons and daughters 
in uniform. I look forward to your questions.
    [The prepared statement of General Dempsey follows:]
            Prepared Statement by GEN Martin E. Dempsey, USA
    Chairman Levin, Senator Inhofe, distinguished members of the 
committee, I appreciate this opportunity to discuss the evolving 
situation in Syria.
    The conflict in Syria remains tragic--for the people of Syria and 
for the region.
    I know you are familiar with testimony by numerous officials from 
across government who have come before the Senate on this subject. So, 
I will focus my opening remarks on the subject of the military 
instrument of national power as it could relate to Syria.
    Our military focus has been on preparedness. We have deployed 
Patriot missiles to defend Turkey as part of a NATO mission. We are 
sharing information and conducting planning with our close partners. We 
have conducted our own internal planning for a wide range of 
contingencies. We are well-postured within the region to respond if 
called to action.
    When called, our responsibility has been and always will be to 
provide the Secretary of Defense and the President with options. Some 
options involve military force. The decision to use force, especially 
lethal force, is not one that any of us takes lightly.
    In weighing options, we have a responsibility to align the use of 
force to the intended outcome. The use of military force does not 
always affect the underlying dynamics driving the conflict or result in 
a sustainable outcome.
    We also have a responsibility to articulate risk--not just risk to 
our forces but to the mission we may be assigned and to our other 
global responsibilities. Some options may not be feasible in terms of 
time or in opportunity costs without compromising our security 
elsewhere.
    Before we take action, we should be prepared for what comes next. 
The use of force--especially in circumstances where ethnic and 
religious factors dominate--is unlikely to produce predictable 
outcomes. To be clear, this is not a reason to avoid intervention in 
conflict. Rather, to emphasize that unintended consequences are the 
rule with military interventions.
    In cases where a direct threat to our homeland is unclear--or where 
it is assessed to be a future rather than an imminent threat--we should 
act when possible in concert with allies and partners to share the 
burden and shape the outcome.
    That said, I would note that the Armed Forces of the United States 
can do very nearly anything asked of it provided that we have the 
support of the American people and the resources necessary to fulfill 
the mission.
    Thank you for your support of America's sons and daughters in 
uniform. I look forward to your questions.

    Chairman Levin. Thank you both very much.
    Let us have an 8-minute first round this afternoon.
    Mr. Secretary, you laid out the policy of the 
administration in your opening statement, including to work 
with allies, hasten an end to the violence, bring about a 
political transition to a post-Assad authority. Is our policy 
working in your judgment?
    Secretary Hagel. In my judgment, Mr. Chairman, I start with 
this, as I have noted in my statement: This, at best, is a 
complicated situation. You all understand that. I think the 
Chairman's comments about the ethnic/religious dynamics in 
play, the unpredictability of the region itself, that is where 
I begin in my own assessment of anything.
    Chairman Levin. But at the end of your assessment, is it 
your judgment that our policy is working?
    Secretary Hagel. It has not achieved the objective, 
obviously. That is why I also said in my statement that is why 
we continue to look for other options, other ways to do this 
and continue to deepen our relationships with our allies and 
coalitions.
    Chairman Levin. General, are there any additional military 
pressures that can be placed on Assad that, in your judgment, 
should be undertaken with all the risks?
    General Dempsey. As I sit here today, Senator, I do not see 
that the introduction of military force would produce the 
outcome that we seek. I am deeply concerned. It is a sectarian 
conflict. I do not think it should be left unaddressed--let me 
be clear about that--but the introduction of military power 
right now certainly has the possibility of making the situation 
worse.
    Chairman Levin. First of all, would you include in that 
the--if Turkey were willing to create a safe zone inside Syria 
along the Syrian-Turkish border, first of all, do you think we 
should support it if they were willing to do that?
    General Dempsey. One of the options that we have produced 
is, in fact, support of both Turkey and Jordan for the 
establishment of humanitarian safe zones, if you will.
    Chairman Levin. Might that option include the movement--I 
am talking now the Turkish-Syrian border--of Patriot missiles 
to protect that safe zone?
    General Dempsey. It would have to include some kind of no-
fly zone to protect the safe zone. I am not sure that the use 
of the Patriot in that way--in fact, I am quite sure that the 
use of the Patriot in that way would not accomplish the task, 
but could be part of accomplishing the task.
    Chairman Levin. What else would be needed?
    General Dempsey. In general, to protect a safe zone, you 
have to have some control of the ground beyond it, ideally, 
artillery range because about 90 percent of the casualties in 
Syria are inflicted by artillery. So to do this in a 
doctrinally correct way, you would have the safe zone to 
extend, however, many kilometers and then, out beyond that, to 
have control of ensuring that artillery would not impact it.
    Now, the Scuds produce a different kind of problem, but 
there are things that we could do to deal with that as well.
    Chairman Levin. Would you support that?
    I do not know if that is called the introduction of 
military force. I guess it is, even though we are not talking 
about the introduction of American troops. We are talking about 
the introduction of a capability along the border, or near the 
border, to accomplish the protection of that zone, if Turkey 
decided it were willing to do it. I do not know if you want to 
label that the introduction of military power. It is but it is 
not inside of Syria.
    Do you think we ought to consider doing that? If not, is 
there any military pressure that we can add that might attract 
Assad's attention?
    General Dempsey. If I could back up because the question 
about, would I support the use of military power, I think 
really should be predicated by the outcome we are trying to 
produce. Clearly ending the suffering is a legitimate and 
important outcome. Preventing the failure of the state of 
Syria, that is to say, its institutions, ensuring that Syria 
does not become a safe haven for groups like al-Nusrah--al 
Qaeda-affiliated groups, al-Nusrah, Ahrar al-Sham, and some 
others.
    So what I would want to know before I simply establish the 
safe zone is, as I said in my statement--I really want to 
understand what we were willing to do, either by ourselves or 
partners, when it escalates, because it will escalate. This is, 
again, not a reason not to do it, Senator, but rather to 
understand the end of the journey before you take the first 
step.
    Chairman Levin. I think we probably would all agree with 
that.
    Are you in the process of trying to reach a conclusion as 
to what the next steps would be, what the impact of such a 
protected zone is? Are you in the process of thinking that 
through?
    General Dempsey. Yes. On the military side, I am, and I am 
also contributing, to the extent possible, to the discussions 
inside of our government, both with the Intelligence Community 
and with our State Department colleagues.
    Chairman Levin. I do not want to put words in your mouth, 
but might you conclude in the near future that such a step or 
steps might be appropriate?
    General Dempsey. I cannot predict that, Senator, at this 
point.
    Chairman Levin. So you cannot predict it.
    General Dempsey. I am telling you the work is ongoing, but 
I just do not know where it is going.
    Chairman Levin. Mr. Secretary, what is the status of our 
thinking about al-Nusrah? Is it, in our judgment, a part now of 
al Qaeda or not? We have gotten different statements, depending 
on whether it is the al-Nusrah folks inside of Syria or whether 
it is al Qaeda in Iraq. What is our assessment?
    Secretary Hagel. I understand you have General Clapper 
coming up here tomorrow, and he can give you a clear assessment 
of that.
    But to answer your question, it is my sense that it is a 
very clear and potent force in Syria. As you have seen through 
open sources, they have made an effort to associate themselves 
with al Qaeda. It is a very effective terrorist group.
    Chairman Levin. Have we taken up the issue of these 
overflights over Iraq from Iran carrying equipment to Assad? I 
noticed in your opening statement, I believe, Secretary Hagel, 
you made reference through a CTR program that DOD personnel and 
our interagency partners are working closely with Jordan, 
Turkey, and Iraq to help them counter the threat from Syria's 
chemical weapons. So if Iraq is threatened by Syria's chemical 
weapons, yet their airspace is being used to protect Assad, 
have we taken that up with Iraq in a very firm way?
    Secretary Hagel. Secretary Kerry recently met with 
President Maliki, and the answer is yes. We are engaged in very 
active discussions with the Iraqis.
    Chairman Levin. Senator McCain?
    Senator McCain. General Dempsey, when you and Secretary 
Panetta testified that both of you recommended the supply of 
weapons to the resistance, what led you to that conclusion and 
recommendation?
    General Dempsey. At the time, the recommendation was based 
on--we felt like we had a clear enough understanding of the 
moderate opposition and we felt as though it was in the long-
term interest of Syria as a nation state, that the institutions 
would not fail. At the time, it was proper at that moment to 
intervene that way.
    Senator McCain. Is it proper now to provide them with 
weapons?
    General Dempsey. To tell you the truth, it is actually more 
confusing on the opposition side today than it was 6 months 
ago. There are more weapons in Syria.
    Senator McCain. So if we had made the decision then to 
supply them with weapons, it would have been less complicated 
than now?
    General Dempsey. That is a potential conclusion, yes, sir.
    Senator McCain. I do not know about potential.
    Let me get this straight. So now you think the situation is 
too complex to provide the resistance with weapons? You have 
changed your recommendation?
    General Dempsey. I have not been asked for a 
recommendation.
    Senator McCain. I am asking for your opinion.
    General Dempsey. My military judgment is that now that we 
have seen the emergence of al-Nusrah and Ahrar al-Sham notably 
and now that we have seen photographs of some of the weapons 
that have been flowing into Syria in the hands of those groups, 
now I am more concerned than I was before.
    Senator McCain. Does that mean you do not think we should 
supply the resistance with weapons, the right people?
    General Dempsey. If we could clearly identify the right 
people, I would support it.
    Senator McCain. I would remind you, I guess it was a year 
ago last March, you and Secretary Panetta said the fall of 
Bashar al Assad is inevitable. I am not sure that when you said 
``inevitable,'' that it was going to drag on as long as it is. 
Of course, jihadists are pouring in. Of course, they are coming 
from all over the Arab world. That is what we said would 
happen. Does it astonish you that jihadists from all over the 
Middle East are pouring into Syria?
    General Dempsey. No, but I would also say I never said 
``inevitable.'' I actually saw this as a frozen conflict.
    Senator McCain. I will get you your testimony, sir, because 
I remember both you and Secretary Panetta said it is not a 
matter of whether, it is a matter when that Assad will fall.
    General Dempsey. That is true. But I thought for some time 
that whether Assad fell, that there would be a continuing 
insurgency from that point forward because of the way he 
treated the opposition.
    Senator McCain. Because they continue to get the flow of 
arms from Russia and from Iran. I am sure you are aware of 
General Mattis' testimony that if Bashar fell, it would be the 
greatest blow to Iran in 25 years.
    General Dempsey. I am.
    Senator McCain. You are aware that General Mattis and 
General Breedlove both testified that a fair amount of Assad's 
operational aircraft could be destroyed on the ground using 
standoff weaponry. I am sure you are aware of that.
    General Dempsey. I am and we have done the analysis.
    Senator McCain. So it is not as if we are going to have to 
take out all of the Syrian air defense systems.
    All I can say, Secretary Hagel, is that military 
intervention at this point could hinder humanitarian relief 
operations. That is so out of touch with the realities of the 
situation on the ground in Syria, it is almost laughable.
    The reason why we are not getting the humanitarian aid in 
is because we are not ensuring that the humanitarian aid gets 
in. For a long time, they were going through Damascus. I think 
we know where that aid goes.
    It could embroil the United States in a lengthy and 
uncertain military commitment. Unilateral military action could 
strain other key international partnerships as no international 
or regional consensus--there is a regional consensus I think 
you will find on your trip, Mr. Secretary, that they want 
American leadership. I think if you visited one of the refugee 
camps or met with the opposition, which I hope you will, they 
are angry and bitter because we have not helped them.
    We are breeding a generation of people who will--as was 
articulated to me by a teacher in one of the refugee camps, 
these children will take revenge on the people who refused to 
help them.
    So as every day goes by, the situation gets worse. A 
slaughter goes on and we sit by and say, ``if we intervened, it 
could hinder humanitarian relief operations.'' It is very hard 
to understand and it is also hard to understand what this 
administration is doing when, at that time, every member of the 
national security team recommended sending arms. As I 
understand what you are saying, General Dempsey, now maybe it 
is more complicated. Of course, it is even more complicated 
than the day it started when a group of young people and others 
rose up against Bashar al Assad. I would argue that every day 
that goes by, there are more and more of these extremists 
coming in and making it more and more complicated.
    Do you believe that we have the capability, General 
Dempsey, to secure these chemical weapons stocks?
    General Dempsey. As I said in the other session, sir, 
certainly we have the ability and it would depend on the 
environment, hostile to a collaborative. But we have the 
planning done. But if it were a hostile environment, it would 
be a significant intervention.
    Senator McCain. If Assad fell and left the country, a 
pillar of the American policy for now well over 2 years, would 
we have to put troops on the ground to secure those chemical 
weapons caches?
    General Dempsey. If we had confidence in the opposition--
remember now, the opposition has said publicly they do not want 
foreign intervention inside the borders of Syria. So if we had 
confidence they could secure it, then they could secure it. If 
we were to have to go in there, it would be non-permissive. We 
have all that planning done.
    Senator McCain. Do you have confidence that we could secure 
it?
    General Dempsey. Not as I sit here today simply because 
they have been moving it and the number of sites is quite 
numerous.
    Senator McCain. I am sure that you understand when I talk 
to these people, that they appreciate the flak jackets. 
Meanwhile, the Iranians are pouring in weapons and people that 
they have trained in Iran and the murders and the torture and 
the rapes go on while the United States says, well--it is in 
Secretary Hagel's statement. A military intervention could have 
the unintended consequence of bringing the United States into a 
broader regional war. I am glad that you were not in charge 
during Bosnia and Kosovo.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator King.
    Senator King. First, a specific question. What is Israel's 
position with regard to what we should do? Are they urging us 
to take greater action? What is their position on this issue 
that we are discussing?
    Secretary Hagel. Senator, I have not had a discussion that 
would revolve around that question on what they may or may not 
be telling us what to do. I have not spoken to my counterpart, 
the Minister of Defense, in Israel. I will be there this 
weekend. We will be, obviously, discussing this issue. What 
recommendations, conversations their senior leaders have had 
with our senior leaders on a position on Syria, I do not know.
    General Dempsey. Can I point out, Senator, that that 
question hints at the real challenge we have with this issue, 
which is that there are multiple players and each of them has a 
bit of a different concern with the situation. So if you are 
Turkey, you are worried about a safe haven for the Kurdish PKK 
[Parti Karkerani Kurdistan]. If you are Jordan, your principal 
concern is the flow of refugees and, as they describe them, 
jihadists. If you are Israel, you have a sense that the 
chemical weapons could eventually be turned on them. The heavy 
air defense weapons could get into the hands of Lebanese 
Hizballah. They have a sense that these jihadist Salifists 
could turn on them. If you are Iran, you want your surrogate to 
prevail. If you are some of the Gulf countries, they have 
selected groups who they believe will eventually adopt their 
form of government and Islam. I mean, this is what makes this 
situation as complex as any on the planet, and there is no 
simple solution to that kind of complexity. That is exactly the 
problem.
    Senator King. As compared with Libya, for example, where--
--
    General Dempsey. As compared with any place.
    Senator King. I could not help but think as you were 
talking and having the colloquy with Senator McCain, one of my 
favorite quotes from Mark Twain is, ``history does not usually 
repeat itself, but it often rhymes.'' There are so many rhymes 
going on here. You just cannot hear this.
    General Dempsey, you have long experience with the use of 
our force, and I take it, from what you are saying, that there 
is no way to predict where this would lead. There is no clean 
way to say, ``okay, we are just going to do a little air power, 
we are just going to do a no-fly zone.'' Then it becomes one 
question after another. Is that your concern?
    General Dempsey. That is exactly my concern, Senator. I 
want to understand the outcome that we believe we are trying to 
encourage, not produce because that has to happen inside of 
Syria and with regional partners. Once I understand the 
outcome, I can take the toolbox I have and I can probably 
provide an option or two or three. But in the absence of 
understanding what we want Syria to--I mean, we have said we 
want it to be a transactional government that is representative 
in nature and all parties come. But show me how that happens.
    Senator King. Everybody wants that.
    General Dempsey. Right.
    Senator King. But with the question of arms, in Afghanistan 
we armed the insurgents against a government that was not in 
our interests and they ended up using the arms against us 10 or 
15 years later. You cannot tell where those arms are going to 
end up. Is that not correct?
    General Dempsey. It is, sir. That is why this issue of 
arming, which on the surface of it seems to be pretty clean, is 
anything but. I mean, look, you have lighted on exactly the 
challenge we face in that issue, in particular, arming the 
opposition.
    Senator King. Yes. We only want to arm the good guys, if 
only we could tell for sure who they are.
    I would like your thoughts, Secretary Hagel. This case 
presents one of the most difficult issues of American foreign 
policy. Even before Syria, I have wrestled with this thought of 
when do we get involved in an atrocity going on within someone 
else's country. I mean, that is a very tough question. Would we 
have intervened in Germany in 1938 if we had known precisely 
what was going on? I think we all would like to say we would 
have and that we would have stopped it. But it is not an easy 
question, and it presupposes--the implication is that we have a 
right to do that anywhere in the world if there is an atrocity 
going on. Could you reflect on that a bit?
    Secretary Hagel. Thank you, Senator. You have just defined 
one rather significant issue and that is the legal basis of 
military intervention in a country. Certainly every nation has 
the right to protect itself in their own interest of self-
defense.
    But to answer your question, you take some of the 
dimensions of this that you laid out, as did General Dempsey, 
you amplify on the complications, then cut that back to your 
question--when do we do this and on what basis and is there a 
framework that we can follow. My answer is, you start with the 
reality these are each imperfect, different situations.
    Chairman Dempsey laid out, I think, rather clearly some of 
the dimensions of each of the countries in that region, their 
own self-interests. You have others who have self-interests in 
this whether it is sectarian or tribal or historic or national. 
Then you try to assess all of this with what General Dempsey 
was talking about. What then is our objective here? How much 
risk are you willing to bear? How much cost are you willing to 
bear? Because there is a cost. There will always be a cost. In 
General Dempsey's opening comments, he talked about if you get 
involved, however way it is in a military intervention, there 
will be a cost to that. It could be a pretty deep cost, a 
pretty high cost.
    I have always taken the approach in my own sense of these 
things that you better always ask the end game questions. Where 
is this going? Where is it likely to end? How is it likely to 
end? We look at Iraq and Afghanistan. I was in the U.S. Senate 
at the time both those wars began, as the two distinguished 
colleagues of yours sitting in front of me were. I do not 
recall a time when anyone came and testified before the U.S. 
Congress that this was going to be an enduring effort and 
occupation.
    Senator King. As a matter of fact, as I recall, someone in 
the administration was fired for saying it would cost $200 
billion in Iraq, and it ended up costing well over $1 trillion.
    Secretary Hagel. That is right, 12 years later, we are 
still in Afghanistan with higher numbers than anybody would 
have predicted; 8 years in Iraq. Now, whether that was the 
right thing or the wrong thing is a different issue.
    But the point is where I start to answer your question is 
you have to play this thing out a little bit in your own mind. 
It is imperfect and imprecise. But what Chairman Dempsey said--
and it is his responsibility; it is my responsibility--if the 
President asks for a recommendation on any of this, yes, we 
will be prepared, but we also have to factor into that: at what 
cost is this going to be for the men and women having to fight 
that war? Some will die in that war no matter what. It is 
always easy to talk policy. It may be worth it. It may be the 
smart thing to do, but you better be damn sure, as sure as you 
can be, before you get into something because once you are into 
it, there is not any backing out, whether it is a no-fly zone, 
safe zone, protect these, whatever it is. Once you are in, you 
cannot unwind it. You cannot just say, ``well, it is not going 
as well as I thought it would go, so we are going to get out.''
    Senator McCain's point about one of my comments in my 
statement about making it worse for humanitarian aid, I think 
we could if we are not careful. If we did not get into this the 
right way, if we get into it, there could be more bloodshed. 
There could be more humanitarian disasters. Maybe not.
    Senator King. If we went in and the other folks who are 
funding the other side, Russia or Iran, decide, okay, they are 
in, we are going to get in in a more major way, we have a 
significant conflict.
    Secretary Hagel. That is another element.
    I would end this way. There is no consensus here. Libya, 
some of these other countries, there was a consensus. We had 
some kind of consensus, whether it was a United Nations (U.N.) 
resolution or something. But we do not have a consensus here on 
this issue. It makes it even more complicated, which gets us 
into legal issues and so on. But just a consensus of what we 
should do, what America's role should be, there is no consensus 
on it.
    Senator King. Thank you, Mr. Secretary.
    Secretary Hagel. Thank you.
    Chairman Levin. Thank you, Senator King.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen.
    General Dempsey, a year ago there was a discussion, a 
debate, about the introduction of arms. Again, you were much 
more tuned into the specifics, but my impression was they were 
essentially small arms, assault weapons, individual weapons. Is 
that fair?
    General Dempsey. Yes, Senator.
    Senator Reed. In the subsequent year, have the Sunni 
opposition--principally the Sunni opposition--received a 
significant number of small arms from sources other than the 
United States?
    General Dempsey. It has. That is reported in an open 
source, but it has.
    Senator Reed. So the lack of arms has not been a decisive 
issue in terms of the conflict on the ground in Syria.
    General Dempsey. No, not in my military judgment. There is 
no shortage of arms in Syria.
    Senator Reed. What is the problem and perhaps was not as 
evident a year ago is the--and I must say the surprising 
durability of Assad, but also the continued incoherence of the 
opposition. Is that a fair statement?
    General Dempsey. Yes.
    Senator Reed. Our policy priority has been, I think, even 
back then and going forward for this year and continuing 
forward, is to try to build a coherent, inclusive opposition as 
the key strategic element in resolving the situation. Is that a 
fair judgment?
    General Dempsey. It is fair and it is even more important 
now with the coalescing of these extremist groups. So now the 
moderate opposition becomes more important.
    Senator Reed. There is another aspect of this issue, just 
the level of conflict. That is, it is not just simply supplying 
the opposition, it is somehow interdicting support for the 
Assad regime. The Chairman mentioned the overflights from Iraq, 
but that support is coming from, most noticeably, Iran. So 
positing even an increase maybe in the sophistication of arms 
we provide, the assumption would be that that would be matched 
unless we took proactive steps or someone took proactive steps 
via further escalation to support Assad.
    General Dempsey. I am not sure I understood the connection 
there, Senator.
    Senator Reed. The connection is this. There is already 
public reporting that the Iranians and others have a vested 
interest in the success of the regime. They are providing 
support, et cetera. Again, if you are looking at both sides of 
the conflict, supplying one side while the other side continues 
to draw resources, may have no effect. So part of the 
calculation has to be--and it goes sort of diplomatically to 
our relationship with Iraq--is somehow interdicting, 
suppressing the supply and support of both money and arms, 
political support for the Assad regime, is that a fair point?
    General Dempsey. It is.
    Senator Reed. It strikes me, too, that talking about a safe 
area, that somebody--and it is probably not us--has to be able 
at least to publicly state that they would physically, if 
necessary, control the ground. Is that a fair judgment too?
    General Dempsey. Yes, it is. I should also mention that the 
two countries we have been in touch with, notably Jordan and 
Turkey, are more interested in having the safe area outside 
their borders so that they do not have this influx inside.
    Senator Reed. But that effectively means that even if they 
do not take actions immediately, when they declare the safe 
area, simply to stop mechanized vehicles from Assad moving in 
as they do, they would physically have to control the ground 
either through air strikes or through artillery strikes or 
through introducing force on the ground.
    General Dempsey. That is correct. The safe zone is only 
safe if you ensure its safety. You have to control the terrain 
at some distance beyond it in order to do that.
    Senator Reed. That would require, given the predisposition 
of the Turks and the Jordanians, basically declaring some part 
of Syria's territory to be controlled by another country.
    General Dempsey. I think that is right.
    Senator Reed. Again, we try to search for analogies, and 
there are many that have been offered. We did, in fact, 
provide--and you are much more knowledgeable than I and 
Secretary Hagel also. We did provide an arrangement with the 
Kurds in Iraq after 1991. But it strikes me that there we had 
defeated the government. We had imposed conditions on them, a 
coalition of forces. There was no need to provide that control 
of the ground because the Peshmerga was pretty good, that we 
had a simple tactical operation just to ensure what the Iraqis 
already agreed to. They would not fly. But that was a result of 
an armed intervention by the United States, not by a unilateral 
declaration by the United States or anyone else. Is that a fair 
recollection?
    General Dempsey. Yes, sir, it is.
    Senator Reed. Again, I think you have to continue to plan 
for every contingency, and the Secretary has made that point. 
But the planning has to be, I think, comprehensive and very 
thorough. The resources have to be considered. Also, I think 
what we have learned, to our chagrin, is that you have to hope 
for the best but plan for the worst. The worst could involve a 
serious engagement of U.S. forces which is hard, as the 
Secretary said, to reverse, and second, extraordinarily 
expensive.
    Have you put any numbers to a situation in which we were 
asked for a modest troop level to support our allies or air 
operations over several months?
    General Dempsey. A dollar figure? Not a dollar figure, but 
we have--in each of these options that we have been developing, 
we understand the resources required, aircraft, munitions, 
manpower.
    But if I could add, we have said, both the Secretary and I, 
that if we are asked to do something in Syria, it will require 
a supplemental. There is no question.
    Senator Reed. Mr. Secretary, just any comments that you 
might have on this line?
    Secretary Hagel. No, Senator. I think your dialogue with 
the Chairman starts to really get to some of the dynamics here 
that have to be thought through. As the Chairman said, we look 
at these plans every day. The joint planning staff, our 
commanders, we are constantly refining that based on the 
realities. Some of those issues have been brought up today, al-
Nusrah and the different issues.
    But the point here I think that you started with is really 
a key component of all of this: coherent opposition. That is a 
very difficult base to start from when the intent is to try to 
help in some way and provide arms to someone. It is easy to say 
the anti-Assad forces is al Qaeda. It is al-Nusrah. You go 
through it. So who exactly are we talking about? Who leads 
that? I know we have a military coalition group and so on. But 
at least in my opinion, as Secretary of Defense, it is still 
not clear enough to make any conclusive adjustments to a policy 
recommendation on, ``Mr. President, this is exactly what we 
should do.''
    Senator Reed. I have used two terms which I think are 
important: ``coherent'' and ``inclusive,'' because as I think 
as General Dempsey suggested, should there be an immediate 
collapse of the Assad Government, there is a potential for 
civil strife unless the opposition is not only coherent but it 
embraces the four major traditions in the country--Shia, Sunni, 
Christian, and Kurd. In other contexts, in Libya--and again, I 
will stand to be corrected--there were tribal rivalries, but 
there was not quite such a traditional distinction, a sectarian 
cleavage, in other areas also. That is a very elusive 
objective.
    But I thank you very much.
    General Dempsey. If I could just add, Senator, do you mind, 
Mr. Chairman?
    Chairman Levin. Not at all.
    General Dempsey. Because it is important to mention, I 
think, that you will hear some folks say we have to act now or 
we risk this becoming a sectarian conflict. I just want to give 
my view of this. It is a sectarian conflict. The question now 
is how do regional partners resolve that so that when it 
collapses, it does not turn into a Lebanon-like experience 
which was 15 years and 100,000. That is a country of 4 million. 
Syria is 20 million.
    Senator Reed. It is a country we did introduce forces and 
had to withdraw them under very dire circumstances. Thank you.
    Chairman Levin. Thank you.
    Let us have a second round, maybe 5 minutes.
    I do not think anyone would disagree with either of you 
about the need to have an end-game idea. What are the effects 
of our actions if we act more forcefully, if we use some 
additional military pressure, or contribute to it, because it 
would not be us acting. It would only be, in my judgment, if 
Turkey decides to act along that border, that we would be 
supportive of Turkey. That is for me having very important 
allies in the region.
    But I think we also--is it fair to say--not only have to 
figure out the consequences of any actions, but we also have to 
figure out consequences of not acting?
    General Dempsey. Yes, I agree with that, Senator. What we 
have been doing with the Israelis, with the Turks, and with the 
Jordanians is trying to help them lower the risk of spillover 
effects. That is in the category of inaction, if you will.
    Chairman Levin. How many refugees are there now?
    General Dempsey. The numbers are a bit elusive. It could be 
as many as a million. Some of them move into camps. Others move 
into homes. So the International Committee of the Red Cross 
tends to lose track of them. It could be a million.
    Chairman Levin. Is there a destabilizing impact of refugees 
coming into Jordan, for instance?
    General Dempsey. There very well could be. The Jordanians 
are concerned about actually having this change their 
demographics, and so they are especially concerned about it.
    Chairman Levin. Is that a consequence of not acting, 
perhaps?
    General Dempsey. It is a consequence----
    Chairman Levin. It could be either way. It could be a 
consequence either way.
    General Dempsey. Sure.
    Chairman Levin. But could that be a consequence of not 
acting, that the refugee flows continue into Jordan and that 
they become more destabilized?
    General Dempsey. Sure. As I said, you can argue both sides 
of almost any of these issues.
    Chairman Levin. I think it is important, though, that both 
sides be argued. I happen to agree with that, but not just--the 
only thing so far that I think you have argued today is we have 
to look for the consequences of actions, and I think we all 
agree to that. But we have not heard from you--and I do not 
know that it is your job, frankly, to look at the consequences 
of not acting, but it is surely our job to look at the 
consequences on both sides. Would you agree with that?
    General Dempsey. I do, Mr. Chairman, but I would say I do 
not think we are guilty of not acting. I am here today, dressed 
as I am, talking about military power. But the other 
instruments of national power are being applied. We can judge 
how well or not well, but they are being applied.
    Chairman Levin. That it has not achieved its policy goals 
yet. I think you would agree with the Secretary. I think he 
said we have not achieved our policy goals. We have not 
achieved them yet. I think you would agree. Would you not?
    General Dempsey. It has never been our goal to see a 
prolonged conflict. So on that basis, I would agree.
    Chairman Levin. You said if the President asks for a 
recommendation. Does that mean there have been no 
recommendations from either of you to the President on this 
question yet?
    General Dempsey. On military power?
    Chairman Levin. On any additional military pressure.
    General Dempsey. We have had National Security Staff 
meetings at which we have been asked to brief the options, but 
we have not been asked for a recommendation.
    Secretary Hagel. We have not been asked. As I said, I have 
not been asked by the President.
    I want to go back, if I could, Mr. Chairman, to a point you 
made, which I have noted in my testimony, opening statement, 
for a specific reason.
    Not that we do not have broader responsibilities, but my 
main responsibility as Secretary of Defense, and you mentioned, 
is the security of this country. My focus is always on that 
first. That has to fold into our broader national security 
objectives. As I said in my statement, it is to support that 
policy. But I wanted to get back to that because I think your 
comment and observation, at least from my perspective, was an 
important one.
    Chairman Levin. You talk about the lack of a consensus, and 
that is true. I do not know that there was a consensus in 
Bosnia. I am trying to remember if there was a consensus in 
Bosnia.
    General Dempsey. It might be useful for us to lay out the 
differences and the similarities that existed. But I will say 
do not forget that there was a NATO consensus.
    Chairman Levin. That is correct. There is not a NATO 
consensus on Syria. I know that.
    However, apparently there is among the GCC. I believe that 
they have together decided to remove Assad from his seat and 
have given it to the opposition. Is that accurate?
    Secretary Hagel. They are funding some of those countries, 
some of the opposition forces. I do not know if there is a 
formal GCC position.
    Chairman Levin. In terms of who represents Syria at the 
GCC, I read there is such a decision that has been made. If 
there is, that would be some evidence of a regional consensus, 
would it not? Some evidence; I am not saying it is compelling, 
overwhelming, conclusive.
    Secretary Hagel. I am not sure it is regional. I think it 
is more within the opposition in Syria. It is Syrian 
opposition, the SOC coalition. I am not sure they represent any 
countries there or any governments in that SOC that has taken 
the place of the Syrian spot there at the Arab League.
    Chairman Levin. Okay. We will double check that. That was 
my understanding.
    I will call on Senator King in just one moment.
    There has been a report that the British and perhaps the 
French are considering additional support to the opposition--
military support, lethal weapons. Is that accurate, do you 
know?
    General Dempsey. I am not aware of that, although we have 
been conducting integrated planning with them as our close NATO 
ally. But I have not heard that they have taken a decision to 
arm anyone.
    Chairman Levin. They are not more forward-leaning than we 
are, as far as you know?
    General Dempsey. Let me just say they share our concerns 
with having the outcome be established before the action.
    Chairman Levin. Senator King?
    Senator King. [Gestured in the negative.]
    Chairman Levin. I know that Senator McCain is on his way, 
and I do have some additional questions.
    Can you tell us what your understanding is as to whether or 
not Syria has actually used chemical weapons?
    Secretary Hagel. Our intelligence agencies are going into 
more detail on what we know and what we do not know. Again, 
when General Clapper is before you tomorrow, I am sure he will 
get into that. I suspect, though, that some of this will have 
to be done in closed session.
    Chairman Levin. Secretary Kerry has said that given the 
current conditions on the ground in Syria, that President Assad 
is unlikely to leave voluntarily. Do you agree with that 
assessment, Mr. Secretary?
    Secretary Hagel. I do.
    Chairman Levin. That it is only additional pressure on him, 
physical pressure, that will drive him out.
    Secretary Hagel. I suspect that, that is the pressure that 
does it.
    Chairman Levin. I think, General, it was you who talked 
about the opposition having arms and that there has been a flow 
of arms to the opposition. I think your answer was maybe not 
exactly that there is no shortage of arms in Syria.
    But the arms that the opposition has are not of comparable 
effectiveness, are they, to what Assad has?
    General Dempsey. Not at the top end. Obviously, the 
opposition does not have aircraft, though they have actually 
captured some, and does not have missiles and rockets. But 
their small arms are comparable.
    Chairman Levin. Would you say this is at the moment an even 
fight militarily?
    General Dempsey. I would say that there is a risk that this 
conflict has become stalemated.
    Chairman Levin. But would you say that the arms that the 
opposition has are of equal lethality to what Assad brings to 
bear? At the top end is fine with me. I will add those words.
    General Dempsey. Yes, not at the top end.
    Chairman Levin. So he has----
    General Dempsey. He has greater capability.
    Chairman Levin.--greater capability in terms of artillery 
and other anti-aircraft----
    General Dempsey. Yes.
    Chairman Levin.--and so forth than does the opposition.
    I just want to go back to that Iranian resupply flights 
that are going to Syria over Iraqi airspace because it really 
troubles me a great deal. In your opening statement, again, 
Secretary Hagel, when you made reference to the fact that we 
are working with Iraq in terms of their concern about chemical 
weapons inside of Syria, I do not know how that jibes with 
their unwillingness to stop those flights. I had the Iraqi 
Ambassador in my office a week ago or so who told me that they 
do not approve of those flights and that those flights are not 
happening. Do we believe that?
    Secretary Hagel. We know that flights are getting into 
Syria.
    Chairman Levin. Over Iraqi airspace coming from Iran?
    Secretary Hagel. Yes, coming from Iran.
    Chairman Levin. Over Iraqi airspace?
    Secretary Hagel. I suspect that that is right. As I said, 
when I made my statement, we are talking to the Iraqis about 
that.
    Chairman Levin. Senator McCain.
    Senator McCain. I would point out, Mr. Secretary, we have 
been talking to the Iraqis about this for about 2 years. It is 
well known that the Iranians are overflying Iraq with weapons. 
Honestly, why you just do not say we know that because it is in 
the public domain, I do not quite understand.
    Could I ask, General Dempsey, do you believe that Lebanon 
and Jordan are less stable than they were a couple of years ago 
because of the strains on their country? In fact, there are 
some who have voiced concerns for a variety of reasons about 
the stability, particularly in Jordan.
    General Dempsey. Yes, their stability are both affected by 
the conflict in Syria.
    Senator McCain. The destabilization, obviously, is of great 
concern to Israel.
    General Dempsey. It is, and in particular, the chemical 
weapons and high-end air defense weapons.
    Senator McCain. If we were to reposition the Patriot 
missile batteries on the Turkish side of the Turkish-Syrian 
border north of Aleppo, would those systems have the capability 
to take out Scud missiles?
    General Dempsey. They would. We have the geometry. The 
Patriot is like an umbrella. It is a point defense system. But 
you can tip it forward. It would not probably reach all the way 
to Aleppo, but it could help.
    Senator McCain. Do you have evidence, or is it not clear, 
or is it--where are we in the scenario as to whether Assad has 
actually used chemical weapons or not?
    General Dempsey. Just before you came in, that question 
came up, and I think you have Director Clapper--and he may have 
to take you to a closed session to answer that question. We 
have seen open source reporting. We are eager for the U.N. to 
get in there and do the analysis. But I cannot say more than 
that in this session.
    Senator McCain. It seems to me that since the President of 
the United States has made it clear that this is a red line, 
that would be just about the last act that he might perform in 
order to avert his overthrow.
    By the way, I know you are concerned, General, about the 
withdrawal of Bashar al Assad to an area along the coast, 
largely Alawite, connected to Hizballah. That is one of the 
scenarios, as this drags out, that really is, it seems to me, a 
significant concern. Are you worried about that scenario as 
well?
    General Dempsey. I actually consider that the most likely 
scenario.
    Senator McCain. The conflict then drags on for quite a 
period of time.
    I want to apologize to the witnesses for my emotion about 
this issue except that what is going on is really horrific. I 
worry about not only what happens now but what happens in the 
future in a country that is clearly becoming more and more 
divided, more and more casualties, more and more 
destabilization of the neighboring nations. So I hope that you 
will not only look at it from the humanitarian side, which a 
lot of us are deeply emotional about--and I am sure you are 
too--but also from the aspect of national security.
    If the scenario you and I just talked about transpires, if 
for some reason the extremists that--Bashar al Assad decides to 
use those chemical weapons, if the jihadists gain the 
ascendancy in Syria, then obviously they would want to 
destabilize both Lebanon and Jordan. So I hope we--and General 
Mattis' testimony that if Bashar falls, it would be the 
greatest blow to the Iranians in 25 years. The centrifuges are 
spinning.
    So there is a great deal at stake here, and I have the 
belief that the American people would not tolerate, nor would 
any of us, boots-on-the-ground. But I think there are numbers 
of ways that we could be of assistance working with countries 
that are already providing a lot of assistance in the region 
and try to bring this tragic episode to an end as quickly as 
possible.
    Mr. Secretary, I hope that you will give it very high 
priority, your deliberations and conclusions, about the 
situation, given the human toll that is being exacted every day 
that this goes on, obviously, in a very elongated fashion.
    I thank the witnesses.
    Would you like to say anything in response?
    General Dempsey. No, sir. Just to reinforce that I assure 
you that I consider and understand the human suffering and the 
tragedy that is Syria. I spent a good deal of my adult life 
trying to figure out the Mideast. This one is the toughest of 
all. But we are putting our shoulder to it in terms of 
planning, and we will be prepared, if asked for options.
    Senator McCain. Thank you.
    Mr. Secretary?
    Secretary Hagel. Senator McCain, thank you.
    I would echo what the Chairman said. In addition, I would 
just tell you, this committee, that I am committed to working 
with you to try to find some way we can do more responsibly 
that is effective.
    I can also tell you that yesterday Chairman Dempsey and I 
met with the President. We took a large part of that meeting 
about this issue, not about this hearing. He sends his 
greetings, of course. I know you have seen him recently. But 
about the issue, I cannot speak for him, nor would I try. But I 
can tell you he is concerned about it for the same reasons, 
Senator, you are and we all are, the humanitarian devastation 
here. So we are committed to trying to find the best way out of 
this for everybody to help them.
    Senator McCain. I thank you for that comment. I am very 
appreciative of it. I promise you, you can count on the 
cooperation and assistance and support of these two old 
geezers, so thank you.
    Chairman Levin. He is speaking for himself in terms of the 
``old geezer'' reference. [Laughter.]
    I just want to clarify one point and then also summarize a 
bit.
    You made reference, in terms of the anti-Assad forces, to 
now al Qaeda, al-Nusrah. At the moment, at least, they are in 
the distinct minority. Is that not true in terms of the anti-
Assad forces numerically? Is that accurate?
    Secretary Hagel. I would think it is. My reference there 
was to just, once again, emphasize, reemphasize what the 
Chairman was saying about the different forces afoot. I think 
as you recall, the Chairman noted the sectarian dimension of 
this. There are a lot of very good people, free Syrians, who 
want a future for their country, and that is not to be under-
played nor under-stated nor under-appreciated. But my reference 
was, Mr. Chairman, to all the different groups that are in this 
opposition crowd.
    Chairman Levin. We sure do not want them to grow any 
further.
    Secretary Hagel. No, we do not.
    Chairman Levin. The al Qaedas, the extremists, the 
jihadists, the al-Nusrah folks.
    The other thing is this: of all of the factors that have 
been mentioned--and the last one was humanitarian, but you have 
mentioned also, of course, the impact of these events on our 
friends and allies in the region, including Jordan and Israel 
and Turkey. But the effect on Iran as to whether or not their 
support for Syria can succeed is perhaps as critical an issue 
as anything. I do not think we ever really fully understood 
what would happen if Iraq took the course that it took in terms 
of Iran being strengthened. So we see in a number of areas Iran 
getting stronger, particularly in terms of their missile and 
nuclear systems. I think if they succeed here in blocking a 
removal of Assad, that that is just another strengthening 
element in terms of Iran, which is to be avoided as much as any 
of these negative factors.
    I want to thank again Senator McCain for his determination 
on this. I have joined with him in pressing to look for 
additional ways to put military pressure on Assad, sending a 
message of inevitability, a message of determination, and I 
think for many reasons, the sooner the better.
    Again, you have had a long day. We really are very grateful 
for allowing the scheduling in the way it has been done. So, 
thank you, to both of you.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]
               Question Submitted by Senator Joe Manchin
                u.s. military engagement regarding syria
    1. Senator Manchin. Secretary Hagel, I appreciate the cautious 
approach taken by you and General Dempsey with respect to U.S. military 
action in Syria in your prepared remarks for this hearing. While I am 
sympathetic to those members of the Syrian opposition who are fighting 
for their freedom from a brutal dictator, our country cannot become 
deeply militarily involved in another costly, indefinite conflict 
abroad when we have so many pressing needs at home. Any U.S. military 
response taken in Syria should be directly linked to our core national 
security interests. If the administration decided it was in the 
national interest to expand the nature and scope of our military 
efforts related to Syria--including unilaterally or through the North 
Atlantic Treaty Organization (NATO), through the establishment of a no-
fly zone, through lethal assistance to the Syrian opposition, or 
through the commitment of U.S. troops--what kind of notification would 
Congress at large, and the Senate Armed Services Committee in 
particular, receive in advance of action?
    Secretary Hagel. The Department of Defense (DOD) will consult 
closely with Congress, in particular with the Senate Armed Services 
Committee, as it has been doing regarding the situation in Syria.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                        assisting the opposition
    2. Senator Inhofe. Secretary Hagel, do you think that U.S. 
assistance, including blankets and food rations, that is not identified 
to the opposition as coming from the United States, is effective at 
countering the narrative that America is not doing anything to help the 
opposition--to counter the perception of a small grocery store owner in 
Aleppo who said: ``America has done nothing for us. Nothing at all . . 
. ''?
    Secretary Hagel. The U.S. Government, working primarily through the 
State Department and the U.S. Agency for International Development 
(USAID), is providing $510 million in humanitarian assistance to the 
Syrian people. Separately, DOD is providing $117 million in support to 
improve the opposition's ability to organize and communicate, and 
deliver basic goods and services to liberated areas. In addition, the 
President recently authorized a requisition for U.S. Government 
supplies and services to provide the Supreme Military Council (SMC) and 
the Syrian Opposition Coalition (SOC) with food and medical supplies 
for distribution to those in need.
    We cannot always publicize the origin of this aid out of concern 
for the safety of our implementing partners. When safety is not a 
concern, the government does brand assistance as emanating from the 
United States.

    3. Senator Inhofe. Secretary Hagel, is there a way to brand our 
humanitarian assistance without decreasing our effectiveness so that 
the Syrian people understand the level of support we are providing?
    Secretary Hagel. DOD cannot always publicize its role in the 
provision of humanitarian assistance out of concern for the safety of 
our implementing partners. When safety is not a concern, the government 
does brand assistance as emanating from the United States.

    4. Senator Inhofe. Secretary Hagel, many commanders have said that 
if we could discriminate between moderate and extremist opposition 
forces within Syria, we should support them with lethal assistance. Is 
our ability to differentiate improving and when, if ever, do you 
anticipate being able to identify the moderate opposition forces?
    Secretary Hagel. I am aware that there are groups inside Syria who 
do not support the SOC's vision for a Syria that is democratic, 
inclusive, and a constructive member of the international community. I 
take the issue of accountability seriously, and believe that allocating 
nonlethal assistance to the SOC and SMC is an appropriate step at this 
time.

    5. Senator Inhofe. General Dempsey, about how many opposition 
forces do you think there are, and against how many in the Syrian armed 
forces?
    General Dempsey. [Deleted.]

    6. Senator Inhofe. General Dempsey, what is your estimate of how 
many al-Nusrah fighters are in Syria?
    General Dempsey. [Deleted.]

    7. Senator Inhofe. General Dempsey, what percentage of the 
opposition is moderate versus extremist in nature?
    General Dempsey. [Deleted.]

    8. Senator Inhofe. General Dempsey, what are the primary extremist 
groups other than al-Nusrah that we know about?
    General Dempsey. [Deleted.]

    9. Senator Inhofe. General Dempsey, where do we know more about the 
opposition: in the north, south, or east of Syria?
    General Dempsey. [Deleted.]

    10. Senator Inhofe. General Dempsey, what are the most effect 
weapons and tactics being used by Assad against the opposition?
    General Dempsey. [Deleted.]

    11. Senator Inhofe. General Dempsey, how many operational ground 
attack fixed wing and rotary wing aircraft does the Assad regime 
currently have at its disposal?
    General Dempsey. [Deleted.]

    12. Senator Inhofe. General Dempsey, Syrian warplanes carried out 
airstrikes on an opposition neighborhood of Damascus on Monday, April 
8, killing at least 25 people. With ground forces stretched thin, Assad 
appears to rely heavily on fighter aircraft and helicopters to stop 
rebel advances. How effective do you assess the Syrian Air Force is 
against the opposition?
    General Dempsey. [Deleted.]

    13. Senator Inhofe. General Dempsey, what is our assessment of the 
number of Scud missiles that the Assad regime has remaining?
    General Dempsey. [Deleted.]

    14. Senator Inhofe. Secretary Hagel, what support are Turkey, Saudi 
Arabia, and Qatar providing to the opposition and do we know whether 
that support includes the extremist elements of the opposition?
    Secretary Hagel. The United States is working with the 
international community to coordinate its assistance to the Syrian 
opposition. In particular, the U.S. Government is working with Saudi 
Arabia, Qatar, and Turkey--which has shouldered a tremendous burden as 
a frontline state, and is hosting a significant number of refugees as 
well as elements of the Syrian opposition--to channel assistance to the 
moderate elements of the opposition. This effort is aimed at ensuring 
the moderate opposition becomes and remains a unified and effective 
force. DOD encourages our partners to channel their aid to the SOC, 
SMC, and broader opposition in a manner that brings the opposition 
together. U.S. allies and partners do, however, have a prerogative to 
provide the aid they feel necessary to protect their national 
interests.
    In addition, the United States is engaging with key partners, 
including Turkey, on the danger posed to Syria and the entire region by 
the presence of extremist elements among the Syrian opposition forces 
and pressing for increased Turkish support to stop the growth of these 
elements.

    15. Senator Inhofe. Secretary Hagel, a spokesman for the Syrian 
opposition named Khalid Saleh, in a meeting convened by British Foreign 
Minister Hague and attended by Secretary Kerry last week, reiterated 
the opposition request for antiaircraft and anti-tank weapons. What 
kind of anti-aircraft and anti-tank weapons could be provided to the 
moderate opposition?
    Secretary Hagel. At this time, the U.S. Government has not made the 
decision to provide lethal assistance to the Syrian opposition. DOD is 
constantly evaluating the myriad risks of supplying the Syrian 
opposition with lethal assistance, specifically anti-aircraft and anti-
tank weapons. Some of the most significant risks involve the 
divisiveness of the armed opposition inside Syria, the potential for 
these arms to fuel the conflict further--thus removing incentives for 
either side to participate in negotiations--and the difficulty in 
accounting for weapons once they enter Syria. In recent history, DOD 
has not provided such advanced weapons to non-state actors. DOD has 
provided such weapons to sovereign governments, primarily through our 
Foreign Military Sales (FMS) program.
    I am continually looking at every feasible policy option and will 
remain in close contact with Congress regarding those options.

    16. Senator Inhofe. Secretary Hagel, what are the risks of 
providing limited numbers?
    Secretary Hagel. The principal risk associated with providing 
lethal assistance to the armed opposition is that advanced weapons 
could end up in the hands of extremist actors who might proliferate 
those weapons further or use them directly against U.S. interests.
    In order for the United States to provide lethal assistance to the 
opposition, as noted in my reply to the previous question (15), the 
United States must have a legal basis to do so. I am continually 
assessing how such a basis could be provided if the United States 
ultimately makes a policy decision that such assistance is in our 
national interests.

    17. Senator Inhofe. General Dempsey, what are the risks associated 
with providing limited numbers of manportable air defense systems to 
the opposition in order to counter Assad's use of tactical aircraft 
against them?
    General Dempsey. [Deleted.]

    18. Senator Inhofe. Secretary Hagel, the growing popularity and 
prowess of the well-equipped al-Nusrah front is worrisome, especially 
with their pledge of allegiance to al Qaeda over the 13-14 April 
weekend. If we don't supply the moderate opposition with arms, and the 
extremist elements of the opposition such as the al-Nusrah front 
continue to be well-supplied, won't the extremist elements control much 
of Syria if Assad is deposed?
    Secretary Hagel. The United States is heavily engaged in supporting 
the SOC and SMC as a counterweight to extremist elements in Syria.
    The U.S. Government is providing $117 million in nonlethal support 
for the civilian opposition. This assistance includes food, medical 
supplies, and communications to enable the SOC to help local councils 
aid communities in liberated areas by expanding the delivery of goods 
and essential services, such as the provision of sanitation and basic 
education services. This support is also enhancing the capacity of the 
SOC and local councils to help build rule law, maintain public order, 
and enhance stability in opposition controlled areas of Syria. The U.S. 
Government is also sending technical advisors to support the SOC 
leadership's efforts to ensure that this assistance is provided to 
those Syrians most in need. Additionally, in April 2013, President 
Obama authorized the provision of nonlethal assistance that will enable 
the SOC and the SMC to help Syrians in need.

                              no-fly zone
    19. Senator Inhofe. General Dempsey, senior administration military 
leaders have dismissed the no-fly zone option as impractical. Can you 
explain why a no-fly zone would be impractical or ineffective?
    General Dempsey. [Deleted.]

    20. Senator Inhofe. Secretary Hagel, what do you assess would be 
the reaction of Iran if we were to enforce a limited no-fly zone?
    Secretary Hagel. Although it is difficult to predict what the 
precise Iranian reactions would be to a no-fly zone, given that Syria 
remains one of Iran's only partners in the region, and given Syria's 
role as a conduit to support Hezbollah, it is likely that Iran would 
view a no-fly zone as a concern for their interests. Iran may also 
consider new ways to increase its aid to Syria and the Assad regime. 
They may also consider steps to undermine U.S. interests in the region.

    21. Senator Inhofe. Secretary Hagel, what is your assessment of how 
Russia would react to a U.S. no-fly zone over Syria?
    Secretary Hagel. A no-fly zone would be a significant military 
action. Without an explicit United Nations (U.N.) Security Council 
mandate, I assess that Russia would at the very least lodge a strong 
diplomatic protest. Of course, I cannot predict the full extent of any 
potential reaction.

       efforts and options to decrease assad regime capabilities
    22. Senator Inhofe. Secretary Hagel, how much and what kind of 
support is Iran providing to the Assad regime?
    Secretary Hagel. [Deleted.]

    23. Senator Inhofe. Secretary Hagel, how much and what kind of 
support is Assad receiving from Iranian overflights of Iraq?
    Secretary Hagel. [Deleted.]

    24. Senator Inhofe. Secretary Hagel, what is your assessment of why 
Iraq will not stop Iranian overflights?
    Secretary Hagel. I believe that Iraq's actions are in part due to 
its efforts to balance the risks it faces in a conflict that includes 
several of its neighbors, in particular Syria and Iran. Prime Minister 
Maliki and other Iraqi leaders expressed concerns about a growing Sunni 
extremist influence in Syria, and that the ongoing violence may lead to 
further sectarian conflict that will spread into Iraq. I do not believe 
that Prime Minister Maliki seeks a break with the United States; he has 
said that he considers Iraq caught between Shia and Sunni contests for 
power and influence in the region.
    I remain concerned about Iranian overflights and continue to press 
senior Iraqi officials to stop these shipments at every possible 
opportunity. Iranian supply of arms to Syria not only violates U.N. 
Security Council resolutions regarding arms shipments from Iran, but 
also prolongs bloodshed in Syria and regional instability. I will work 
with the Secretary of State to continue to urge the highest levels of 
the Iraqi Government to stop the transport of lethal aid through Iraqi 
airspace.
    During Secretary of State Kerry's March 24, 2013, visit to Iraq, he 
raised this issue with Prime Minister Maliki and urged that Iraq either 
deny overflight requests for Iranian aircraft going to Syria, or 
require such flights to land in Iraq for credible inspection. Since 
that visit, Iraq stepped up inspecting flights bound for Syria. Prime 
Minister Maliki, in an April 8 Washington Post op-ed, also publicly 
committed to working to ensure that Iraqi airspace and territory is not 
used for the transfer of weapons. The United States will continue to 
press Iraq to deny overflights for Iranian aircraft going to Syria, or 
receive any such flights to land in Iraq for credible inspection.

    25. Senator Inhofe. Secretary Hagel, how much and what kind of 
support is Russia providing to Assad?
    Secretary Hagel. [Deleted].

    26. Senator Inhofe. Secretary Hagel, clearly our interests are at 
odds with Russia. Unfortunately, Russia is being obstructionist at the 
U.N. and is preventing economic sanctions and diplomatic isolation from 
having any real effect. Why do you think that Russia is so tenacious in 
its support for Assad?
    Secretary Hagel. DOD has raised serious concerns with Russian 
counterparts about their continuing support for the Assad regime, 
including arms sales, urging them to act more responsibly. Russia 
appears reluctant to abandon its longstanding relationship with the 
Assad regime, and also is concerned about what it views as the 
potential for regional instability that could follow the Assad regime. 
However, Russian officials have continued to signal support for a 
negotiated settlement to the conflict, specifically the Geneva Final 
Communique of June 2012 for the action group on Syria towards a 
political transition in that country.

    27. Senator Inhofe. Secretary Hagel, has the Russia reset failed us 
on this significant issue?
    Secretary Hagel. U.S. policy towards Russia over the past 4 years 
began with the recognition that the state of the relationship as the 
President took office did not serve U.S. national security interests. 
In the last 4 years, the United States and Russia have been achieving 
significant results by cooperating in areas of mutual interest and 
producing real benefits for the American and Russian people. The U.S. 
Government negotiated, concluded, and has been successfully 
implementing the New START treaty; adopted tough multilateral sanctions 
on Iran and North Korea to prevent them from pursuing nuclear weapons 
programs; and Russia has provided critical support to our operations in 
Afghanistan via the Northern Distribution Network. Regarding Syria 
specifically, continued dialogue with Russia is important to provide 
the best prospects for a political resolution to the conflict in Syria, 
which would include a transition from the Assad regime.

    28. Senator Inhofe. Secretary Hagel, what actions can we take to 
further isolate Assad?
    Secretary Hagel. The administration's goal remains a managed 
political transition led by the Syrian people. To this end, the 
administration is seeking to isolate Assad and his regime through 
diplomatic and economic pressure.
    Through international initiatives such as the Friends of the Syrian 
People group, the U.S. Government is working to accelerate a Syrian-led 
political transition that results in a peaceful, unified, and 
democratic Syria, in which all citizens are protected. The 
administration continues to support U.N. Joint Special Representative 
Brahimi's efforts, which seek to advance a political process--
specifically a transitional governing body formed on the basis of 
mutual consent and exercising full executive powers--as outlined in the 
June 30, 2012, Geneva Communique. The U.S. Government has also 
acknowledged the SOC as the legitimate representative of the Syrian 
people--this is an important step in advancing a unified Syrian vision 
for what a post-Assad Syria could look like.
    Since the Syrian uprising began, President Obama has issued five 
Executive orders imposing new sanctions on Syria. Since the start of 
the uprising, the administration has worked with partners around the 
world to freeze the Assad regime's funds, and has designated for 
sanctions close to 100 individuals and entities, including Assad 
himself. The administration has also used pre-existing authorities to 
target the regime's illicit activities, including the proliferation of 
weapons of mass destruction (WMD) and illicit finance.

    29. Senator Inhofe. General Dempsey, what are the major logistical 
nodes that Assad is relying on to resupply his armed forces with 
defense-related articles?
    General Dempsey. [Deleted.]

    30. Senator Inhofe. General Dempsey, can we take action against 
those nodes?
    General Dempsey. [Deleted.]

    31. Senator Inhofe. General Dempsey, how many Scuds do we assess 
Assad has remaining?
    General Dempsey. [Deleted.]

    32. Senator Inhofe. General Dempsey, what is our ability to target 
and destroy all of the Scud launchers in Syria with standoff weapons? 
That is, if we were to do an attack, what percentage of the launchers 
could we destroy?
    General Dempsey. [Deleted.]

             cooperation with regional allies and partners
    33. Senator Inhofe. General Dempsey, can you describe the 
cooperative efforts we are undertaking with regional partners and 
allies, including NATO, Israel, Jordan, Turkey, and Iraq?
    General Dempsey. [Deleted.]

    34. Senator Inhofe. General Dempsey, with which allies and partners 
can we improve our cooperation?
    General Dempsey. [Deleted.]

    35. Senator Inhofe. Secretary Hagel, in the second week of April, 
shells hit the Golan Heights and Israel fired back. In March, rebels 
kidnapped 21 Filipino peacekeepers in the Golan Heights. In January, 
Israel conducted an airstrike on a weapons convoy in Syria. What is 
your assessment of the likelihood that cross-border incidents could 
result in Israel being involved in a major skirmish in Syria?
    Secretary Hagel. Syria's internal conflict, in combination with 
spillover of violence into Lebanon, is creating instability to Israel's 
northern border. I am closely monitoring the situation in the Golan 
Heights and in Syria overall, and I am aware that spillover violence 
could expand. As such, DOD and the administration continue to work with 
our regional partners, including Israel, to ensure that we are prepared 
for all contingencies in Syria.

    36. Senator Inhofe. General Dempsey, with refugee numbers that will 
soon amount to 10 percent of its population, increased pressure on 
electricity and water supplies, a fragile political situation, and the 
Muslim Brotherhood waiting to take advantage of any misstep, are you 
worried about the stability and security of Jordan?
    General Dempsey. [Deleted.]

    37. Senator Inhofe. General Dempsey, what are we doing to help 
Jordan handle its refugee situation?
    General Dempsey. Since fiscal year 2009, the Defense Security 
Cooperation Agency has approved 27 projects in Jordan at an estimated 
cost of $3.55 million. These projects focused on building partner 
capacity in health support and, more recently, helped the Government of 
Jordan cope with the impacts of misplaced personnel fleeing the 
conflict in Syria. Since May 2012, U.S. Central Command has executed 19 
projects, approximately $1.687 million, to include the provision of 
emergency operations center equipment, feeding support equipment for 
refugee populations, medical equipment, and refugee camp improvements, 
in support of the Government of Jordan's efforts to support displaced 
populations fleeing Syria.

    38. Senator Inhofe. General Dempsey, will a declaration of a 
disaster area help?
    General Dempsey. DOD has been able to meet all of Department of 
State requests to date without a declaration of disaster.

                            chemical weapons
    39. Senator Inhofe. General Dempsey, what types and general amount 
of chemical weapons are you most worried about in Syria?
    General Dempsey. [Deleted.]

    40. Senator Inhofe. Secretary Hagel, would you say the 
proliferation of chemical weapons in Syria is one of our primary 
concerns regarding the situation in Syria and our biggest WMD 
proliferation threat in the world today?
    Secretary Hagel. The potential proliferation of chemical weapons in 
Syria is one of our top security concerns today. The President has made 
it clear that the confirmed use of chemical weapons or the transfer of 
such weapons to terrorist groups would be unacceptable. The United 
States continues to gather all pertinent facts, in cooperation with key 
partners and allies, and supports the U.N. completing an investigation 
addressing all allegations of chemical weapons use in Syria at the 
earliest opportunity. Through the DOD Cooperative Threat Reduction 
(CTR) program, DOD personnel and its interagency partners are working 
closely with Syria's neighbors, including Jordan, Turkey, and Iraq, to 
help build their ability to counter the threat from Syria's chemical 
weapons.

    41. Senator Inhofe. General Dempsey, what is your plan to ensure 
the security of WMD materials if security in Syria deteriorates further 
and the chemical weapon sites become unsecure?
    General Dempsey. [Deleted.]

    42. Senator Inhofe. General Dempsey, what are the assumptions about 
security and threat conditions in the country used for planning 
purposes to secure WMD material; for example, do you assume a 
permissive, semi-permissive, or non-permissive environment?
    General Dempsey. [Deleted.]

    43. Senator Inhofe. Secretary Hagel, who is integrating our efforts 
to secure and eliminate chemical weapons?
    Secretary Hagel. Given the complexity of this challenge and 
uncertainty about the security environment in which any such actions 
would take place, ensuring the security and eventual elimination of 
Syrian chemical weapons must be a whole-of-government effort. DOD will 
continue to work closely with the Department of State, the Intelligence 
Community, and others--including key international partners. The 
national security staff will continue to coordinate these efforts in 
accordance with Presidential Policy Directive-1.

    44. Senator Inhofe. Secretary Hagel, do we have a capability to 
destroy or disable chemical weapons in a rapid manner on site? In 
effect, do we have render-safe procedures for chemical weapons?
    Secretary Hagel. DOD possesses the ability to address limited 
quantities of chemical agents or munitions under exigent circumstances. 
However, it is important to understand that when talking about Syria, 
we are looking at a program that has been producing and stockpiling 
vast quantities of chemical agents and delivery systems for decades at 
numerous facilities spread across the country. This is an industrial-
size problem that will require significant international resources and 
time to address.

    45. Senator Inhofe. Secretary Hagel, how do you think Israel will 
react if they believe chemical weapons may fall into terrorist hands?
    Secretary Hagel. The United States remains in close contact with 
Israel on the deteriorating situation in Syria. The President, I, and 
Israeli officials have all stated that the transfer of chemical weapons 
to terrorists will not be allowed. The administration and DOD remain in 
close coordination with Israel as we monitor the situation in Syria. In 
doing so, DOD has developed a variety of options. I expect that Israel 
will work to ensure it is capable of taking action, if necessary, to 
prevent chemical weapons from falling into terrorist hands.

    46. Senator Inhofe. Secretary Hagel, who is integrating our efforts 
to consequence manage should chemical weapons be used on the Syrian 
people?
    Secretary Hagel. The U.S. Government is working on several fronts 
to help prepare the Syrian people and Syria's neighbors to be able to 
manage the consequences of a chemical weapons attack. With respect to 
possible victims, the U.S. Government, through USAID and 
nongovernmental organizations, is providing medical supplies directly 
to Syrian citizens.
    In terms of working with Syria's neighbors, the U.S. Government is 
addressing this issue through capacity building and through strategic 
engagements. The DOD CTR program is providing training and equipment to 
Jordan to enhance relevant Jordanian entities' capacity to manage the 
consequences of any attack that crosses the Syrian-Jordanian border, 
while ensuring that they can continue to perform their threat reduction 
mission. DOD is strategically engaging other countries in the region to 
identify their level of preparedness and response capabilities, and to 
consider other CTR support.
    Finally, DOD is working with the Department of State to engage key 
European partners and some of Syria's neighbors to consider what 
consequence management requirements would be needed in the region in 
the aftermath of an attack that crosses Syria's borders, and how 
different partners might be able to help.

    47. Senator Inhofe. Secretary Hagel, what are your primary concerns 
should Assad use chemical weapons on his own people?
    Secretary Hagel. Should the Assad regime use chemical weapons, I 
would be concerned about the welfare and safety of the Syrian people, 
the potential for further use, its destabilizing effect on an already 
volatile conflict, its implications for regional stability, the 
precedent its use could set both inside Syria and throughout the world, 
and the risk of loss of control or transfer of such weapons to 
terrorist organizations.

    48. Senator Inhofe. Secretary Hagel, if a Chemical Weapons 
Convention signatory, such as the United States, secures the chemical 
materials at a site in Syria, we would then be responsible for their 
elimination. What is your plan for that potential scenario?
    Secretary Hagel. DOD takes its treaty obligations seriously and 
reviews its plans carefully to ensure compliance. The specifics of our 
plan for any particular scenario will depend heavily on the facts on 
the ground. That said, I would expect an international effort, 
including a number of countries, to be undertaken to eliminate Syrian 
chemical weapons and related materials.

    49. Senator Inhofe. General Dempsey, what is our specific 
assessment of whether or not chemical weapons have been used in Syria?
    General Dempsey. The Intelligence Community recently assessed--with 
varying degrees of confidence--the Syrian regime has used chemical 
weapons on a limited scale in Syria, specifically the chemical agent 
sarin. This assessment is based in part on physiological samples. For 
example, the chain of custody for the samples is not clear, so we 
cannot confirm how the exposure occurred and under what conditions. The 
Intelligence Community is continuing to evaluate reporting and events 
regarding use of chemical weapons in Syria.

    50. Senator Inhofe. General Dempsey, what is our current assessment 
of whether or not chemical weapons have been used to date in Syria?
    General Dempsey. The Intelligence Community recently assessed--with 
varying degrees of confidence--the Syrian regime has used chemical 
weapons on a limited scale in Syria, specifically the chemical agent 
sarin. This assessment is based in part on physiological samples. Our 
standard of evidence must build on these intelligence assessments as we 
seek to establish credible and corroborated facts. For example, the 
chain of custody for the samples is not clear, so we cannot confirm how 
the exposure occurred and under what conditions. The Intelligence 
Community is continuing to evaluate reporting and events regarding use 
of chemical weapons in Syria.

    51. Senator Inhofe. General Dempsey, what is your assessment of the 
likelihood and scenarios in which Assad might use chemical weapons on 
the Syrian people?
    General Dempsey. [Deleted.]

    52. Senator Inhofe. General Dempsey, do you suspect Assad will use 
chemical weapons on any of his neighboring states, and if so, in what 
scenarios?
    General Dempsey. [Deleted.]

                           policy objectives
    53. Senator Inhofe. Secretary Hagel, in your testimony, when you 
were asked by Senator Levin if in your judgment that our policy for 
Syria is working, you said: ``. . . it hasn't achieved the objective, 
obviously.'' Therefore, we either need to give up on our policy 
objectives or pursue alternative means of accomplishing them. What new 
or different means to achieve the stated policy objectives regarding 
Syria would you recommend to the President, if asked?
    Secretary Hagel. To date, we have not achieved the key objective 
that Assad steps down. Continued diplomacy and sanctions, as well as 
support for the Syrian opposition, including encouraging other nations 
to provide assistance through the Syrian Opposition Council, remain 
critical to pursuing this objective. U.S. humanitarian assistance--$510 
million committed to date--is helping the Syrian people, but obviously 
their suffering will not end until a new government is in place.

    [Whereupon, at 3:18 p.m., the committee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
